CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the Bar of this Court
and that on December 20, 2019, I caused a copy of the annexed letter in Estate of
Esther Klieman, By and Through Its Administrator, Aaron Kesner, et al. v.
Palestinian Authority, aka The Palestinian Interim Self-Government Authority (No.
19-741) on behalf of Respondents requesting an extension of time to file Respondents’
brief in opposition to Petitioners’ Petition for a Writ of Certiorari to be served on the
counsel for Petitioners identified below by courier, and caused an electronic version
to be transmitted to the counsel identified below, pursuant to Rule 29 of the Rules of
this Court. All parties required to be served have been served.
Counsel for Petitioners Estate of Esther Klieman, et al.:
Steven Robert Perles
PERLES LAW FIRM, PC
1050 Connecticut Ave., N.W.
Suite 500
Washington, D.C. 20036
(202) 955-9055
sperles@perleslaw.com
Dated: December 20, 2019

Respectfully submitted,

Squire Patton Boggs (US) LLP
Gassan A. Baloul
Counsel of Record for Respondent
2550 M Street, NW
Washington, DC 20037
(202) 457-6155
gassan.baloul@squirepb.com

